No. 19-267

 

 

IN THE
Supreme Court of the Anited States

Our LADY OF GUADALUPE SCHOOL,

Petitioner,
v.

AGNES MORRISSEY-BERRU,

Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,427 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 28, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
